No. 20-449
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES DEPARTMENT OF HOMELAND SECURITY
ET AL., PETITIONERS
v.
STATE OF NEW YORK, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONERS, via first-class mail, postage prepaid, this 23rd
day of December, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2882 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on December 23, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 23, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0449
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, ET AL.
NEW YORK, ET AL.

BAHER AZMY
CENTER FOR CONSTITUTIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6464
BAZMY@CCRJUSTICE.ORG
ANDREW J. EHRLICH
PAUL, WEISS, RIFKIND WHARTON &
GARRISON LLP
1285 AVENUE OF THE AMERICAS
NEW YORK, NY 10019
212-373-3000
AEHRLICH@PAULWEISS.COM
JONATHAN H. HURWITZ
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON, LLP
1285 AVENUE OF THE AMERICAS
NEW YORK, NY 10019212-373-3254
JHURWITZ@PAULWEISS.COM
CLARE E. KINDALL
ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
10 FRANKLLIN SQUARE
NEW BRITAIN, CT 06051
860-827-2683
CLARE.KINDALL@CT.GOV

GEORGIA MARY PESTANA
INTERIM CORPORATION COUNSEL
NEW YORK LAW DEPARTMENT
100 CHURCH STREET
NEW YORK, NY 10007
212-356-2400
JULIO A. THOMPSON
ASSISTANT GENERAL COUNSEL
VERMONT OFFICE OF THE ATTORNEY
GENERAL
1711 BLISS ROAD
EAST MONTPELIER,, VT 05651
802-828-5519
JULIO.THOMPSON@VERMONT.GOV
BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
ATTORNEY GENERAL'S OFFICE
28 LIBERTY STREET
NEW YORK, NY 10005-1400
212-416-6274
BARBARA.UNDERWOOD@AG.NY.GOV

